<html>
<title> - NOMINATIONS OF KAREN DYNAN AND RICHARD G. FRANK</title>
<body><pre>[Senate Hearing 113-380]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-380
 
                    NOMINATIONS OF KAREN DYNAN AND 
                            RICHARD G. FRANK 

=======================================================================

                                HEARING

                               before the

                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                 on the

                             NOMINATIONS OF

KAREN DYNAN, TO BE ASSISTANT SECRETARY FOR ECONOMIC POLICY, DEPARTMENT 
 OF THE TREASURY; AND RICHARD G. FRANK, TO BE ASSISTANT SECRETARY FOR 
    PLANNING AND EVALUATION, DEPARTMENT OF HEALTH AND HUMAN SERVICES

                               __________

                            JANUARY 30, 2014

                               __________
                                    

            Printed for the use of the Committee on Finance

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

89-639 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




                          COMMITTEE ON FINANCE

                     MAX BAUCUS, Montana, Chairman

JOHN D. ROCKEFELLER IV, West         ORRIN G. HATCH, Utah
Virginia                             CHUCK GRASSLEY, Iowa
RON WYDEN, Oregon                    MIKE CRAPO, Idaho
CHARLES E. SCHUMER, New York         PAT ROBERTS, Kansas
DEBBIE STABENOW, Michigan            MICHAEL B. ENZI, Wyoming
MARIA CANTWELL, Washington           JOHN CORNYN, Texas
BILL NELSON, Florida                 JOHN THUNE, South Dakota
ROBERT MENENDEZ, New Jersey          RICHARD BURR, North Carolina
THOMAS R. CARPER, Delaware           JOHNNY ISAKSON, Georgia
BENJAMIN L. CARDIN, Maryland         ROB PORTMAN, Ohio
SHERROD BROWN, Ohio                  PATRICK J. TOOMEY, Pennsylvania
MICHAEL F. BENNET, Colorado
ROBERT P. CASEY, Jr., Pennsylvania

                      Amber Cottle, Staff Director

               Chris Campbell, Republican Staff Director

                                  (ii)



                            C O N T E N T S

                               __________

                           OPENING STATEMENTS

                                                                   Page
Baucus, Hon. Max, a U.S. Senator from Montana, chairman, 
  Committee on Finance...........................................     1
Hatch, Hon. Orrin G., a U.S. Senator from Utah...................     3

                        ADMINISTRATION NOMINEES

Dynan, Dr. Karen, nominated to be Assistant Secretary for 
  Economic Policy, Department of the Treasury, Washington, DC....     5
Frank, Dr. Richard G., nominated to be Assistant Secretary for 
  Planning and Evaluation, Department of Health and Human 
  Services, Washington, DC.......................................     6

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Baucus, Hon. Max:
    Opening statement............................................     1
    Prepared statement...........................................    15
Dynan, Dr. Karen:
    Testimony....................................................     5
    Prepared statement...........................................    17
    Biographical information.....................................    19
    Responses to questions from committee members................    36
Frank, Dr. Richard G.:
    Testimony....................................................     6
    Prepared statement...........................................    48
    Biographical information.....................................    50
    Responses to questions from committee members................    90
Hatch, Hon. Orrin G.:
    Opening statement............................................     3
    Prepared statement...........................................    95

                                 (iii)


   NOMINATIONS OF KAREN DYNAN, TO BE ASSISTANT SECRETARY FOR ECONOMIC
    POLICY, DEPARTMENT OF THE TREASURY; AND RICHARD G. FRANK, TO BE
                   ASSISTANT SECRETARY FOR PLANNING 
                     AND EVALUATION, DEPARTMENT OF
                       HEALTH AND HUMAN SERVICES

                              ----------                              


                       THURSDAY, JANUARY 30, 2014

                                       U.S. Senate,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:02 
a.m., in room SD-215, Dirksen Senate Office Building, Hon. Max 
Baucus (chairman of the committee) presiding.
    Present: Senators Cardin, Hatch, and Isakson.
    Also present: Democratic Staff: Mac Campbell, Deputy Staff 
Director; Tiffany Smith, Senior Tax Counsel; David Schwartz, 
Chief Health Counsel; Anderson Heiman, Nominations and Tax 
Policy Advisor; and Sara Harshman, Research Assistant. 
Republican Staff: Chris Campbell, Staff Director; Jeff Wrase, 
Chief Economist; Kimberly Brandt, Chief Healthcare 
Investigative Counsel; Nicholas Wyatt, Tax and Nominations 
Professional Staff Member; and Anna Bonelli, Detailee.

   OPENING STATEMENT OF HON. MAX BAUCUS, A U.S. SENATOR FROM 
            MONTANA, CHAIRMAN, COMMITTEE ON FINANCE

    The Chairman. The committee will come to order.
    President Woodrow Wilson once said, and I quote him: ``I 
not only use all the brains that I have, but all that I can 
borrow.'' This administration, like any other, needs to bring 
together all the brains, wisdom, and experience that it can.
    We face tough challenges as a Nation--high unemployment and 
an under-performing economy, a struggling middle class--and we 
need public servants of great expertise to help put American 
back on track.
    With us today are two nominees who fit the bill: Dr. Karen 
Dynan and Dr. Richard Frank. Both bring decades of experience 
in government and academia. They are well-respected in their 
fields. Their knowledge and skills will be vital as they take 
on their new roles.
    First is Dr. Karen Dynan, who is nominated to be Assistant 
Secretary for Economic Policy at the Department of Treasury. 
She has already contributed decades of valuable research in the 
field of economics. She brings a wealth of knowledge and 
experience to the position, particularly in macroeconomics, 
housing finance, and household savings.
    That expertise will be critical to the Treasury Department. 
Why? Because we are still rebounding from the Great Recession. 
Between 2007 and 2009, net household wealth in the United 
States dropped by more than $16 trillion. The recession cost 
the United States about 8.7 million jobs.
    And Treasury plays a key role in the recovery. If 
confirmed, Dr. Dynan will lead the office of Economic Policy 
and help formulate policies to safeguard and grow our economy. 
Her job will include many issues important to this committee, 
including reforming the tax code, strengthening Social Security 
and Medicare, and developing our tribal economies.
    Dr. Dynan previously served as the vice president and co-
director of the Economic Studies Program at The Brookings 
Institution, and prior to that she was a distinguished 
economist and advisor to the Federal Reserve at the Council of 
Economic Advisors.
    If confirmed, I am confident Dr. Dynan will provide 
Secretary Lew, the President, and this committee with clear, 
direct, and valuable analysis.
    Next, we have Dr. Richard Frank, who is nominated to serve 
as Assistant Secretary for Planning and Evaluation at the 
Department of Health and Human Services. If confirmed, it will 
be Dr. Frank's job to analyze the agency's core health care 
policies, to examine their costs, their benefits, and 
coordinate the Department's strategic and legislative planning.
    In short, Dr. Frank and his team will help keep HHS and its 
programs on track. With everything on the Department's plate, 
this is an important task. HHS continues to work on 
implementing and overseeing the Affordable Care Act, 
strengthening the safety net, and improving our health care 
programs. For the past 15 years, Dr. Frank has been a professor 
of health economics at Harvard Medical School. From 2009 to 
2011, he took a leave from Harvard to serve as the Deputy 
Assistant Secretary for Planning and Evaluation.
    He directed the Office on Disability, Aging, and Long-Term 
Care Policy--one of the five main offices he would oversee, if 
confirmed. And in 2011, he received the Distinguished Service 
Award from the Mental Health Association of Maryland. Dr. 
Frank's qualifications are impeccable, and he is the right 
person for the job.
    I thank both nominees for joining us here today, and I 
commend their desire to serve the public. I look forward to 
hearing their testimony.
    Let us remember President Wilson's words: ``I not only use 
all the brains I have, but all that I can borrow.'' I know all 
of you, as brainy as you are, will also be borrowing a lot of 
other brains.
    If confirmed, Dr. Dynan and Dr. Frank will step into 
significant, challenging roles, but, with all of their 
knowledge and expertise, they will make invaluable 
contributions to the administration of the country, and they 
are ready to join the team. I hope the committee can act on 
these nominations very quickly.
    [The prepared statement of Chairman Baucus appears in the 
appendix.]
    The Chairman. I now turn to my good friend, Senator Hatch.

           OPENING STATEMENT OF HON. ORRIN G. HATCH, 
                    A U.S. SENATOR FROM UTAH

    Senator Hatch. Thank you, Mr. Chairman.
    Today we are here to discuss two nominees. Each one, if 
confirmed, will conduct important policy analysis, but for 
different agencies.
    Let me first address Dr. Karen Dynan, President Obama's 
nominee to be Assistant Secretary for Economic Policy at the 
Department of Treasury, who appears to me to be very well-
qualified for this position, and I think she should appear to 
everybody as well-qualified.
    She has a long career history of providing careful economic 
analysis, and, if she is confirmed, I hope that this will 
continue during her time at the Treasury. That said, I would 
like to comment on the unfortunate trend we see in this 
committee's processing of nominees to various positions in the 
administration.
    I want to mention it now because I hope that this practice 
will stop with Dr. Dynan's nomination. As the committee 
processes nominees, it is customary for Senators to submit 
written questions for the record. Unfortunately, in recent 
years the answers we have been given or are receiving in 
response to these questions have been lacking.
    Indeed, responses we receive from nominees, particularly 
Treasury nominees, have been incomplete at best and are 
becoming increasingly vacuous, often having little bearing on 
the real policy questions that are being asked. The situation 
seems to be getting worse. Despite complaints I have registered 
in this committee for years now, it is not just with nominees. 
Sitting Treasury officials have answered questions in a similar 
manner, if they answer them at all.
    Now, I am personally pleased to see, in Dr. Dynan's 
testimony, an acknowledgement of the utility of using ``data-
driven'' approaches to policy analysis. Such an approach is 
consistent with repeated requests I have made for data and 
information about Treasury's debt and cash positions as we near 
a debt limit. Unfortunately, Treasury has not been willing to 
work with me thus far to improve data flows and availability to 
Congress, including the Congressional Budget Office, on debt-
related matters.
    Lack of information here in Congress leads to a situation 
where the Majority Leader in the Senate has recently said that 
we have until May to increase the debt limit, while the 
Treasury Secretary says something else based on what he says is 
the ``best data.''
    I have repeatedly asked Treasury for answers relating to 
those data, only to have my requests ignored. Sadly, this is 
par for the course with this administration. This does not bear 
directly on Dr. Dynan's nomination, but I do hope that I have 
adequately communicated the level of frustration I have, and 
others on this committee have, with the communication received 
from the Treasury Department.
    Dr. Dynan, if you are confirmed--and I intend to see that 
you are--I hope you will commit to working with members of this 
committee from both parties to provide the best information 
possible on matters under your jurisdiction. I have very high 
confidence in you. I have great confidence in your husband. 
What a duo!
    He has done a great job for the Congress of the United 
States, and I think he has done it with the highest sense of 
ethics and capacity. I expect you to be every bit as good. So I 
am just saying this while your two daughters are here so they 
will hear it, but we intend to support you, and we congratulate 
you for being willing to serve your government, our government, 
the way you are.
    Next, let me turn to President Obama's nominee to be 
Assistant Secretary for Planning and Evaluation at the 
Department of Health and Human Services. Do not worry; I am not 
going to dump all over you just because I have been nice. 
[Laughter.]
    The Chairman. You are going to be even nicer?
    Senator Hatch. No, I am not going to be nicer. [Laughter.]
    I will be nice. Sorry.
    If confirmed, Dr. Frank will run the policy-setting arm of 
HHS. Congress, the Secretary, and others rely on the Assistant 
Secretary to produce fact-based, impartial analysis of 
important policy problems, not the least of which will include 
an accurate assessment of Obamacare enrollment.
    With the difficulties facing HHS as it implements the 
Affordable Care Act and administers health care programs for 
millions nationwide, ASPE needs thoughtful and experienced 
leadership. From what I have seen, Dr. Frank, I think, will 
provide that leadership. He is capable and able to provide that 
leadership.
    I intend to support you as well, and I hope that these 
appointments go through right away. We think both of you will 
be great additions in these areas, and I just want to 
congratulate both of you for being willing to serve your 
country, and to work for your country and serve it.
    Thanks, Mr. Chairman.
    The Chairman. Thank you, Senator.
    [The prepared statement of Senator Hatch appears in the 
appendix.]
    The Chairman. Dr. Dynan, why don't you go first? Why don't 
you introduce your family here so we can all see who all is 
part of the team?
    Dr. Dynan. Thank you, Mr. Chairman. I would like to 
introduce my daughters, Laura and Caroline Elmendorf, who are 
sitting behind me. Laura is a freshman at Williams College in 
Massachusetts, and Caroline, her twin sister, is a freshman at 
Wesleyan University in Connecticut. My husband, Doug Elmendorf, 
is also here today. Like me, he is an economist and has spent 
most of his career in public service.
    The Chairman. Well, thank you. Why don't all three of you 
stand, please, so we can recognize you? Thank you. And thanks 
for all being part of the family. [Applause.]
    We know, obviously, Doug quite well. We do not know your 
two daughters as well, but wish you all very well.
    Why don't you proceed with your testimony?

    STATEMENT OF DR. KAREN DYNAN, NOMINATED TO BE ASSISTANT 
  SECRETARY FOR ECONOMIC POLICY, DEPARTMENT OF THE TREASURY, 
                         WASHINGTON, DC

    Dr. Dynan. Thank you. Chairman Baucus, Ranking Member 
Hatch, members of the committee, it is a privilege to be here. 
I am honored to have been nominated by President Obama, and I 
am grateful to Secretary Lew for recommending me. Thank you for 
your consideration.
    I did appreciate the opportunity to introduce my family 
members who are here. My parents, Bill and Ann Dynan, also 
wanted to be here. They live in Connecticut and were unable to 
make the trip, but I want to credit them with teaching me some 
important lessons that continue to influence the way I approach 
my work today.
    My father, who is now 90 years old, served in the Army in 
World War II and later became a successful businessman. When he 
started his own small business in the late 1970s, the economy 
was in a rocky state. The business eventually became 
successful, but the experience left me with a deep appreciation 
of the importance of having an economic environment in which 
businesses can thrive.
    My mother raised me and my three siblings, but she always 
managed to find time to help out in our community. She 
volunteered for our church, our public schools, and a variety 
of service organizations like the American Red Cross. Both she 
and my father continue to spend time every week doing volunteer 
work. Watching them support their community over the years has 
made me a passionate believer in the importance of public 
service.
    I decided to attend graduate school in economics based on 
my interest in public policy. My professors at Harvard, and 
especially my main dissertation advisor, Professor Greg Mankiw, 
taught me the importance of taking a dispassionate, data-driven 
approach when analyzing the effects of policy.
    My professors also emphasized that one should explore the 
possible unintended consequences, as well as the intended 
effects of any given policy idea. Both these threads run 
through the work of economists at universities, in government, 
and in the think tank world, and I have endeavored always to 
keep both in my mind and my own work.
    Since receiving my doctorate, I have been very fortunate to 
work on important economic policy issues in a variety of roles. 
After graduate school, I joined the staff of the Federal 
Reserve Board and spent most of the next 17 years there, 
working first for Chairman Greenspan and then for Chairman 
Bernanke. I took a break to join the staff of the Council of 
Economic Advisors from 2003 to 2004, during my former academic 
advisor Greg Mankiw's tenure as Chairman.
    In 2009, I left the Fed to become vice president for 
economic studies at The Brookings Institution. Being at 
Brookings gave me a chance to work on an even wider range of 
policy issues and to interact with, and learn from, a broad 
range of people and groups on the front lines of our economy, 
including the general public, consumer advocates, and business 
leaders.
    While my research as an economist has addressed a number of 
macroeconomic issues, household economic security has been a 
particular passion of mine. I have explored the factors that 
underlie consumer spending and saving decisions, including the 
roles of income uncertainty, tax credits, house and stock price 
appreciation, and credit availability.
    In the wake of the recent mortgage crisis, I have also 
studied the effects of household debt and de-leveraging on the 
economy, as well as foreclosure issues. Putting households on a 
firmer economic and financial footing is an important policy 
goal of President Obama's, and I hope that my past and future 
research results can help us meet that goal.
    If confirmed, I hope to draw from the lessons I have 
learned from my experiences and from my research while 
Assistant Secretary for Economic Policy at the Treasury 
Department. Although our economy has made a great deal of 
progress since the end of the Great Recession, the recovery 
remains incomplete and there is important work to be done to 
make sure we are on the right track to achieve robust and 
broadly shared economic growth over the long run.
    Thank you for the consideration of my nomination, and I 
look forward to answering your questions.
    The Chairman. Thank you very much, Dr. Dynan.
    [The prepared statement of Dr. Dynan appears in the 
appendix.]
    The Chairman. Dr. Frank, you are next.
    Dr. Frank. Thank you, Mr. Chairman.
    The Chairman. And I am sure you have family here you would 
like to introduce.
    Dr. Frank. I do. I would like to introduce my wife, 
Elizabeth Frank. We have two sons, neither of whom is here. One 
is serving in the Peace Corps in Ecuador right now, and the 
other one is trying to start a business in London.
    The Chairman. So he is following in your footsteps.
    Dr. Frank. Yes. Correct. Thank you.
    The Chairman. So, thank you very, very much.

 STATEMENT OF DR. RICHARD G. FRANK, NOMINATED TO BE ASSISTANT 
SECRETARY FOR PLANNING AND EVALUATION, DEPARTMENT OF HEALTH AND 
                 HUMAN SERVICES, WASHINGTON, DC

    Dr. Frank. Chairman Baucus, Ranking Member Hatch, members 
of the committee, thank you for inviting me here today. I am 
honored to have been nominated by the President to serve as the 
Assistant Secretary for Planning and Evaluation at the 
Department of Health and Human Services.
    I am currently a professor of health economics at Harvard 
University Medical School. I have spent my entire career 
engaged in teaching, research, and service related to the 
economic aspects of health policy. This has included prior 
service in the Federal Government, most recently between 2009 
and 2011 as Deputy Assistant Secretary at HHS.
    I viewed public service as an important part of my career 
before I even had a career. I see the possibility of serving at 
ASPE as an enormous opportunity to make a difference and to 
contribute to the larger American society.
    My parents were both immigrants who came to the United 
States during the Second World War. My father came to the 
country in 1939 from Switzerland and was drafted and served in 
the Army in the European theater, where he was badly wounded. 
He went to college on the GI bill and had a successful career 
as an engineer. My mother, who was originally French, survived 
the Auschwitz concentration camp and came to the U.S. to stay 
with her aunt, as her parents, aunts, and uncles who were in 
Europe were all exterminated.
    She has lived a rewarding and productive life, raising two 
children and helping acclimate foreign students to the U.S. 
Both my parents were deeply grateful to this country for 
offering them safety and opportunity. They regularly reminded 
me how fortunate I was to have been born here and how we were 
obliged to try to give back if we could.
    They encouraged me to join the Peace Corps, and my time in 
the Republic of Botswana was my first exposure to national 
service. Serving at ASPE would offer me the possibility to 
apply all my professional training and experience in economics 
and health policy to support policy-making for Health and Human 
Services at a time of monumental change that presents an 
enormous set of challenges to us.
    The ASPE serves as the Secretary's principal policy advisor 
responsible for policy coordination, strategic planning, policy 
research evaluation, and economic analysis. More than ever, key 
decision-makers in the administration, Congress, and the States 
are going to need first-rate information and analysis to 
support their choices.
    I believe my training in health economics and experience in 
conducting research related to markets and programs for Health 
and Human Services have prepared me to lead the talented team 
of professionals at ASPE to support the HHS leadership.
    My academic and technical preparation, I believe, are 
augmented by my service in State and Federal Government, 
including my time at HHS, membership on a State regulatory 
commission, membership on a congressional commission, and 
service as a consultant to a number of State government 
agencies across the country. I believe this background 
positions me to lead a team that will provide the 
administration and the Congress with technically rigorous, 
balanced, and policy-relevant analyses.
    HHS touches on a vast array of populations, programs, and 
markets, ranging from the pharmaceutical industry, to early 
childhood programs, to programs and regulations aimed at the 
provision and financing of mental health and substance abuse 
disorders, to our public health financing programs, Medicare, 
Medicaid, and CHIP. This requires great breadth of talent. ASPE 
is staffed by a skilled group of professionals who cover the 
range of expertise needed to understand, analyze, and evaluate 
HHS activities. I am deeply committed to supporting the 
excellence that exists at ASPE and to bolstering it so that 
ASPE can effectively respond to new demands driven by 
scientific progress, changing financial circumstances, and 
shifting demographics.
    I thank you for your consideration of my nomination and 
would welcome the opportunity to work with you all.
    [The prepared statement of Dr. Frank appears in the 
appendix.]
    The Chairman. Thank you, Dr. Frank.
    I neglected to ask your wife to be recognized. Would you 
please stand up and be recognized so we can thank you for your 
service as well? [Applause.]
    I have some obligatory questions we ask of all nominees. I 
will ask those first, and then I will just ask both of you, and 
you can each indicate your response.
    Is there anything that you are aware of in your background 
that might present a conflict of interest with the duties of 
the office to which you have been nominated?
    Dr. Dynan. No.
    Dr. Frank. No.
    The Chairman. Thank you. Do you know of any reason, 
personal or otherwise, that would in any way prevent you from 
fully and honorably discharging the responsibilities of the 
office to which you have been nominated?
    Dr. Dynan. No.
    Dr. Frank. No.
    The Chairman. Thank you. Do you agree, without reservation, 
to respond to any reasonable summons to appear and testify 
before any duly constituted committee of Congress, if 
confirmed?
    Dr. Dynan. Yes.
    Dr. Frank. Yes.
    The Chairman. Do you commit to provide a prompt response in 
writing to any questions addressed to you by any Senator of 
this committee?
    Dr. Dynan. Yes.
    Dr. Frank. Yes.
    The Chairman. Thank you.
    I will start with you, Dr. Dynan. What is the utility, the 
use, of this concept of big data in your work, and maybe over 
at Treasury? Where could that be applied that might have some 
positive, practical effect?
    Dr. Dynan. Well, I think the development of data sets that 
offer a great deal of comprehensive information at what we 
would call the microeconomic level--so, at the level of the 
household, or the borrower, or the firm--has really opened up a 
lot of opportunities for economists who, prior to the era of 
big data, were very constrained in being able to identify or 
isolate the influence of particular policy when they just had 
these macroeconomic time series to look at.
    Being able to dig down and actually kind of look at 
households and their actual economic environment and then how 
they behave in response to a policy just allows us to have much 
more insight into what the effects of what that policy will be 
on the economy.
    The Chairman. Do you at all delve into social networking, 
either in learning what people's habits, responses, and 
reactions are to events that would help formulate policy? I 
really do not know what the question is I am asking. 
[Laughter.] But it has to do with the phenomenon of social 
networking and asking whether any economist's analysis these 
days moves out of the traditional realm of economic work into 
tapping into this new development called social networking.
    Dr. Dynan. You are raising a very important issue and 
something that is potentially quite promising. I cannot say I 
myself have made a lot of use of the data that can be gathered 
through social networking or through the Internet, but I do 
know that there are some very interesting things that people 
are exploring.
    So one of the challenges that policymakers have faced as 
the economy is at a turning point is detecting that that is 
actually happening, because these macroeconomic time periods 
that we traditionally rely upon, they come out with a lag, and 
it is just a few data points. They do not really give us a lot 
of insight into what is going on.
    But I have seen very interesting work that people have done 
using, for example, data about Google searches to try to detect 
whether suddenly there is a great interest in, for example, 
foreclosure prevention measures that might tell you that the 
housing market is turning in some particular market. So I think 
these things really hold a lot of promise.
    As yet I have not done a lot of work myself with these 
data, but it is certainly something that, if confirmed, I would 
like my team to be looking into.
    The Chairman. Well, maybe you both could answer the next 
question. I have found it frustrating, to just put it mildly, 
that we get estimates and surveys and so on and so forth based 
on the most recent available data, which often is years old. It 
is very, very frustrating, because our world is changing so 
quickly. Give us your thoughts on how in the world we can get 
more current data. That is a general question obviously, but 
let us take your areas. Could this committee do anything, or 
why is this data so dated?
    Dr. Dynan. I share your frustration. In my own research, I 
have made a lot of use of household survey data sets, and most 
of the traditional sources in that area come out with a lag 
that can be a year, but it could be 2 years or 3 years. So that 
is hardly going to be useful when you are trying to look at----
    The Chairman. So what can be done about that?
    Dr. Dynan. So I think the creators of those data sets, they 
face a trade-off. When you first collect the data, it can be 
noisy and full of errors, and what they are trying to do is 
spend some time kind of cleaning up the inconsistencies so that 
the data sets actually do offer enough signal such that they 
can extract information from them. I think one policy 
implication is just that it is important to provide the 
entities that are creating----
    The Chairman. My time is expiring.
    Dr. Dynan [continuing]. With enough of----
    The Chairman. With the indulgence of the committee, I would 
just give Dr. Frank maybe a minute on my basic question.
    Dr. Frank. Yes. I think there are some new technologies 
that are available, and if both the administration and the 
Congress decided to invest in them, I think we could speed 
things up. For example, there are companies that pay households 
to put computers in their house.
    They get basic information so then they can mount a 
computer-based survey on this sample of people very, very 
quickly and get the information back, because they only collect 
the things that they really need at that moment, since they 
already have the basic demographics and things on the people.
    They can bring that in, and they continuously refine their 
sample so that it looks like, for example, our current 
population survey. I think that has enabled us to really speed 
up the data turnaround, so I think this is a real opportunity 
for, I guess both of us, if we are confirmed, and for the 
Congress, to make some investments in new data.
    The Chairman. Thank you. Thank you very much.
    Senator Hatch?
    Senator Hatch. Thank you, Mr. Chairman.
    First of all, for everybody in this room and everybody 
watching, I believe this is the last hearing that our 
distinguished chairman is going to conduct in this committee, 
because he has been called to be the Ambassador to China, and 
he is going to embark on a wholly new program in his life and 
his wife's life and family's life that I think is going to be 
of extreme interest to him and to all of us.
    So I want to just say what a privilege it has been to work 
with Max Baucus over this past while that I have been on this 
committee. I do not know a more honest, decent man than Max, 
and I do not know of anybody in the Democratic Party who does a 
better job of trying to stand up for his country. We on this 
side have really appreciated the fair-handed leadership that 
you have provided for all of us, and we are going to miss you.
    The Chairman. Well, thank you.
    Senator Hatch. I personally will miss you, and I think our 
members on both sides will miss you as well. So I just wanted 
to make that comment.
    Look, I am not going to ask any questions. I know both of 
you. I have read your resumes. You both have distinguished 
service careers. You both deserve support, and both of us will 
do everything in our power to see that these nominations are 
confirmed as soon as possible. So with that, I will just not 
ask questions.
    The Chairman. Well, thank you for your very warm comments, 
Senator. I deeply appreciate it.
    Senator Isakson?
    Senator Isakson. Well, thank you, Mr. Chairman. I want to 
associate myself with Senator Hatch's remarks about your 
service and my appreciation for what you have done for me, as 
chairman of the Finance Committee and personally.
    In fact, Dr. Dynan is here today, whom I met with this 
morning. She is a prolific writer on housing policy and housing 
finance, and I can tell the committee from the experience I 
have had for years in housing, we are very fortunate to have 
somebody of her qualifications going to advise the Secretary of 
Treasury on housing policy.
    I think her knowledge of underwriting and leverage, and her 
knowledge of Federal policy and what we can do, is outstanding. 
However, as I was going through her application that she 
answered or her resume, I stumbled upon something that would be 
interesting, I think, to you, and I know it is interesting to 
me. In June of 2013, she published a piece, along with Ted 
Gayer and Natasha Plotkin, entitled The Recent Homebuyer Tax 
Credit: Evaluation and Lessons for the Future.
    Since I wrote that bill and you made it possible by helping 
me find the pay-fors, I would love to hear what the lessons 
learned were in terms of the Housing Tax Credit.
    Dr. Dynan. Thank you, Senator Isakson. I enjoyed our 
conversation as well. Yes, that was a piece of research that we 
did that tried to isolate the effects on the housing market of 
the Homebuyer Tax Credit that was put in place during the 
housing crisis. The overall conclusion of the study was that it 
was one of a set of measures that did successfully arrest the 
freefall of the housing market in early 2009. As I am sure you 
deeply appreciated, that was a scary time.
    After that credit was put in place, along with a variety of 
other measures that Congress and the Federal Reserve put in 
place, we did see a stabilization of the housing market. The 
credit seemed to have its intended effects. It increased 
housing demand. It did so modestly, but that would be a result 
of the modest amount of money that was put towards it. My co-
author and I concluded that it was a useful tool that the 
policymakers used at the time.
    Senator Isakson. Well, thank you for that answer. I think 
the chairman would agree with me: we both hope we will never 
have to do something like that again and to react to such a 
terrible crisis. But I appreciate your focus and intellect and 
your commitment to housing and housing policy, and you will be 
a great Assistant Secretary.
    Dr. Frank, I did not have the time to talk to you, and I 
apologize for that, but I agree with Ranking Member Hatch that 
your qualifications are outstanding. There is only one little 
suggestion I will give you: do not forget the CDC in Atlanta 
when you are working on health policy and its effects on 
economics, because they stop most of the major things that 
could wipe us out on a daily basis. But good luck to you, and I 
appreciate you both for your service.
    Dr. Frank. Thank you very much, Senator.
    The Chairman. Thank you, Senator.
    Senator Cardin?
    Senator Cardin. Well, Mr. Chairman, if this if your last 
hearing that you will be chairing, it is certainly one of 
harmony. We do not always have hearings that are this--Senator 
Hatch, I know you are always respectful, but sometimes there is 
a little bit more disagreement than we have here today.
    So I just want to concur in Senator Hatch's comments, 
though, about our chairman. It has been a real pleasure to work 
with Senator Baucus, first when I was in the House of 
Representatives and we worked on issues, but now to be a member 
of this committee.
    Senator Baucus is going to take on a new challenge of being 
our Ambassador to China. It is going to be a challenging 
commitment, and we look forward to continuing to work with you, 
but in a different capacity. We will certainly miss your 
incredible leadership on this committee in bringing Democrats 
and Republicans together as we should, and having the type of 
discussion--and hopefully action--that the American people 
expect from us. So thank you very much for your leadership, and 
we will miss you.
    I just really wanted to comment that both of our nominees 
have Maryland ties here, which we are very proud of. Of course, 
Dr. Dynan is a Maryland resident, and we are very proud of your 
public service and wish you well and thank you and your family, 
because this is a family event. Dr. Frank held a position at 
Johns Hopkins University, a long-tenured position there, and is 
well-known for his leadership in mental health. We thank you 
very much for that.
    Senator Hatch, Dr. Frank also was affiliated with the 
University of Pittsburgh. Senator Hatch and I both graduated 
from the University of Pittsburgh, so we always make that 
connection when we can. So I strongly thank both of you and 
your families for your willingness to serve in public life.
    I will just make one or two other comments. Dr. Frank, we 
critically need your help on mental health issues. It is an 
area that you bring great expertise to, and we look forward to 
working with you as we figure out how we can really live up to 
our commitment of providing full coverage to all people and to 
eliminating discrimination against mental health services in 
America.
    Dr. Dynan, President Obama spoke last night, or two nights 
ago, about retirement. Senator Portman and I, Senator Hatch and 
others, and Senator Baucus have all been interested in the 
retirement issues, so we look forward to working with you to 
figure out how we really can fill the gap in retirement 
savings.
    To both of you, again, thank you for your willingness to 
serve.
    The Chairman. Thank you, Senator.
    My main point to all of you is, just thank you so much for 
your dedication to what you are about to do. We know Doug quite 
well. We very much appreciate Doug, and that is an 
understatement. We admire Doug and all that he does, the hard 
work that he performs and undertakes. It is an almost-
impossible job that he has done, serving 535 different bosses, 
but he does an excellent job doing it. I have called your 
husband many times and said, ``Doug, we need to do this; Doug, 
we need to do that,'' and he will say, ``Yes, Senator, yes, 
Senator.''
    But of course, he receives many other calls as well with 
the same requests, but he has handled it very professionally, 
very solidly over the years, and I just have the highest regard 
for him. In listening to you and the answers to the questions I 
asked, I get the same sense that you have the same high level 
of professionalism, intelligence, and dedication to service, 
and I just thank you for what you are doing.
    The question I was going to ask, which I will refrain from 
asking, is, just with all the academic work, which portions of 
your work have had the most direct, practical, positive effect 
on public policy? Often academics are academic, but we also 
have to get practical. I will not ask that question, but I 
would just urge you to obviously find practical results.
    Dr. Frank, the same. I know you are in an area that is so, 
so, so needed: mental health and long-term care and disability. 
We do talk a lot about helping to achieve parity between mental 
health and physical health, and we mean it when we say it. It 
is really, really important. It is difficult, but it is 
extremely important.
    Thank you both very, very much. I will always remember the 
two of you, since this is probably the last hearing I will 
chair. You will be very high in my thoughts over the years, 
because it happens to be the last hearing, but also because of 
your competence and your professionalism. Thank you very much. 
I wish you very, very well.
    Thank you. The hearing is adjourned.
    [Whereupon, at 10:40 a.m., the hearing was concluded.]



                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
